No.

SntEfje

Supreme Court of tfje Uniteti States
Arek R. Fressadi,
Petitioner-Applicant,
v.

State of Arizona; Et Al.,
Respondents.

CERTIFICATE OF SERVICE

Pursuant to U.S. Supreme Court Rule 29, I, Arek R. Fressadi, hereby certify
that the Motion for Leave to Proceed In Forma Pauperis and Petition for a Writ of
Certiorari in this case were sent postage prepaid from United States Postal Service
(USPS) to the U.S. Supreme Court on November 2, 2020, with scheduled arrival
within three calendar days. Said documents were electronically sent and mailed via
the USPS to all parties required to be served, through their counsel as listed below,
scheduled to arrive within three calendar days of filing. Per 28 U.S.C. § 1746,1 declare
under penalty of perjury that the foregoing is true and correct.
Executed on November 2, 2020.

Arek R. Fressadi
Petitioner-Applicant, Pro Se Legist

SERVICE LIST
Amy S. Ruskin, Deputy County Attorney
Pima County Attorney’s Office
32 North Stone Avenue, Suite 1400
Tucson, AZ 85701
amv.ruskin@ncao.pima.gov
Attorney for Respondents
Mark Brnovich, Attorney General
State of Arizona
400 West Congress, South Building, Suite 315
Tucson, AZ 85701-1367
Mark.Brnovich@azag.gov
Attorney for Respondents

